                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washington. D.C. 20230




July 26,2010


MEMORANDUM


TO:                   Eric C. Schwaab
                      Assistant Administrator for Fisheries
                      National Oceanic and Atmospheric Administration

FROM:                 Ann C. Eilers   rJ ~          f!.      file rr
                      Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:              Closeout of Fisheries Finance Loan Program Audit (STL-18578)


This memo is to advise you that the Office of Inspector General has terminated the audit of the
Fisheries Finance Loan Program in order to focus our efforts on reviewing other Department
program operations.

We would like to thank you and your staff for your cooperation during the course of this audit. If
you have any questions, please contact David Sheppard, regional inspector general-Seattle, at
(206) 220-7970.


cc:	   Mary Glackin, Deputy Under Secretary for Operations, NOAA
       William Broglie, NOAA Chief Administrative Officer
       Mack Cato, Director, NOAA Office of Audit, Internal Control and Information
          Management
       Gary Reisner, Director, NMFS Office of Management and Budget
